U.S. Department of Agriculture
 Office of Inspector General
      Southwest Region
         Audit Report


     Food and Nutrition Service
   National School Lunch Program
Lake Worth Independent School District
         Fort Worth, Texas




                       Audit Report No.
                       27010-7-Te
                       September 2003
                 UNITED STATES DEPARTMENT OF AGRICULTURE
                               OFFICE OF INSPECTOR GENERAL
                                     Southwest Region - Audit
                                  101 South Main Street, Suite 324
                                       Temple, Texas 76501
                              TEL: 254-743-6565 FAX: 254-298-1373




DATE:        September 23, 2003

REPLY TO
ATTN OF:     27010-7-Te

SUBJECT:     Accountability and Oversight of the National School Lunch Program –
             Lake Worth Independent School District, Lake Worth, Texas

TO:          William Ludwig
             Regional Administrator
             Food and Nutrition Service
             Dallas, TX

ATTN:        Ronald Rhodes
             Regional Director
             Special Nutrition Programs


We conducted an audit of the National School Lunch Program (NSLP) as administered by
the Lake Worth Independent School District in Lake Worth, Texas, also known as the
School Food Authority (SFA). The purpose of the NSLP is to provide nutritionally
balanced, low-cost or free lunches to schoolchildren and encourage better eating habits.

We reviewed the SFA's procedures to ensure the propriety of (1) meal claims, (2) the
application and verification process for determining student eligibility, (3) individual
school monitoring, (4) program fund investments, and (5) program procurements.

We found that the SFA arbitrarily adjusted the Texas Education Agency (TEA) approved
base-year percentages in August and September of 2002 because SFA personnel
believed meal claims exceeded the maximum amount of meals they could claim. Further,
our comparison of meal service records to attendance records for September 2002
showed that the SFA claimed more meals than supported by daily attendance records. As
a result, the SFA’s claims for reimbursement were not accurate. Except for the
above-mentioned issue dealing with the inaccuracy of meal claims, we found no issues
with the other stated objectives.
William Ludwig                                                                                2


We recommend that the Food and Nutrition Service (FNS) direct the Texas Department of
Agriculture (TDA) to verify the accuracy of the SFA’s meals claimed for school year (SY)
2002/2003 and recover any excess payments. We also recommend that FNS review
base-year percentages and determine if the percentages need to be modified. Further, we
recommend that FNS direct the TDA to train the SFA and conduct a followup review to
ensure the SFA has implemented internal control procedures as outlined in FNS Provision
2 guidance, including comparison of daily meal counts to attendance adjusted enrollment.

BACKGROUND

On June 4, 1946, Congress passed the National School Lunch Act (42 U.S.C. 1751), now
the Richard B. Russell National School Lunch Act (Act), as amended December 29, 2001,
authorizing Federal assistance to the States in the establishment, maintenance, and
operation of school lunch programs. The Act established the NSLP to safeguard the
health and well-being of the Nation’s children and to encourage the domestic consumption
of nutritious agricultural commodities. The program provides Federal assistance to help
public and nonprofit private schools of high school grade or under, as well as public
nonprofit private residential childcare institutions, that serve nutritious lunches to children.

NSLP is usually administered through a State’s Department of Education (known as the
State agency) that has the responsibility for administration of the NSLP. In the State of
Texas, the NSLP is administered by two agencies, TDA and the Texas Department of
Human Services (TDHS). The administration of the NSLP was moved from the TEA to the
TDA in July 2003. TDA administers the NSLP in charter and public schools, while the
TDHS administers the NSLP in private schools and residential childcare institutions. This
audit concentrated on the administration of the NSLP with regards to this particular SFA.

The State agency is required to enter into a written agreement with the FNS for the
administration of the NSLP Statewide, and written agreements with the SFA for local
administration. The State agency is also required to perform administrative reviews
covering both critical and general areas that include, but are not limited to, meal claims,
eligibility determinations, and use of program funds. A coordinated review effort and a
review of compliance with nutrition standards are conducted at each SFA. FNS Regional
Office personnel may participate in these reviews. SFAs are responsible for the
administration of the program at the local school district level. Individual schools are
responsible for the onsite operation of the NSLP, including the implementation of adequate
meal accountability systems and the review and approval of student applications for free
and reduced-price meals. The State agency and the SFAs are responsible for reviewing
the monthly meal claims to ensure that the number of meals claimed is limited to the
number of approved students in each category, adjusted to reflect the average daily
attendance.
William Ludwig                                                                            3


The fiscal year 2002 funding for the NSLP was $5.8 billion for meal reimbursements of
approximately 6 billion lunches. The fiscal year 2003 estimated funding is $6 billion in
meal reimbursements. For SY 2001/2002, the State of Texas had a NSLP enrollment of
4.2 million and reimbursements of $800 million, and the SFA operated 4 schools with an
enrollment of 2,185 students and reimbursements of $821,290.

OBJECTIVES

The objectives of this audit were to evaluate the SFA's procedures to ensure the
propriety of (1) meal claims, (2) the application and verification process for determining
student eligibility, (3) individual school monitoring, (4) program fund investments, and
(5) program procurements.

SCOPE AND METHODOLOGY

Audit work was performed at the FNS Regional Office in Dallas, Texas, the TEA in Austin,
Texas, and the SFA in Lake Worth, Texas. The SFA was selected because it is a
Provision 2 school district. Provision 2 is a special assistance alternative designed to
reduce application burdens and simplify meal-counting procedures. Our fieldwork was
conducted between October 2002 and March 2003. The period covered by the audit
included the NSLP operations for SY 2002/2003 for August, September, and October
2002.

In order to evaluate meal claims, we examined monthly reimbursement claims, average
daily attendance reports, basic meal claims and daily records, and observed meal
services. Because this was a Provision 2 school, we accepted the student eligibility
documentation as presented by the SFA, which is not required to verify eligibility annually.
We evaluated individual school monitoring by reviewing the SFA’s onsite reviews and the
child nutrition program administrator’s manual. Regarding program fund investments, we
limited our review to evaluating policies, procedures, controls, and interviewing the
cafeteria manager and business manager. To evaluate procurement procedures, we
limited our review to examining independent audit reports and visiting the cooperative
through which purchases for the NSLP were made. To more completely address the
objectives, we reviewed the FNS and TEA regulations, policies, and procedures relating to
the NSLP, and discussed with FNS and TEA personnel any concerns they had with
program operations, and conducted interviews with the child nutrition program director and
child nutrition program administrative assistants.

The audit was conducted in accordance with Government Auditing Standards.
Accordingly, the audit included such tests of program and accounting records as
considered necessary to meet the audit objectives.
William Ludwig                                                                            4


FINDINGS

The SFA, a Provision 2 school district, arbitrarily adjusted its base-year percentages prior
to the submission of reimbursement claims because SFA personnel believed meal claims
exceeded the maximum amount of meals they could claim. As a result, the SFA’s claims
for reimbursement were not accurate.

During the first year, or base year, the Provision 2 school makes eligibility determinations
and takes meal counts by type. During the next 3 years, the school makes no new
eligibility determinations and counts only the number of reimbursable meals served each
day. Reimbursement during these years is determined by applying the percentage for
free, reduced-price, and paid meals served during the corresponding month of the base
year to the total meal count for the claiming month.1 An SFA may continue to use the
base-year percentages for an indefinite period as long as the socioeconomic status of the
student population has remained the same, declined or increased by 5 percent or less.

In addition to regulations,2 FNS has published guidance for State agencies and SFAs,
which includes meal counting and claiming procedures for Provision 2 school districts.
The guidance explains SFAs’ internal control requirements and claims review processes in
nonbase years. The guidance emphasizes the requirement that SFAs perform edit checks
daily, not monthly, and that SFAs compare each school’s daily meal counts against the
number of enrolled students times an attendance factor. The guidance also states that if
the edit check comparison shows more total meals claimed than the attendance-adjusted
enrollment, then the SFA officials need to follow up with the school to determine the cause
before submitting claims for reimbursement to the State agency.

The TEA child nutrition manual, in accordance with Federal regulations, states that during
nonbase years the total monthly meal counts will be multiplied by the percentage for free,
reduced-price, and paid meals established in the corresponding base year to determine
the amount of the reimbursement. This will form the school district’s reimbursement claim
for the month.

In accordance with regulations, TEA approved the base-year percentages that the SFA
submitted for SY 1997/1998 under Provision 2. However, when we tested the August and
September 2002 claims, we found that the SFA’s child nutrition director had arbitrarily
adjusted the approved base-year percentages prior to submitting the claims for
reimbursement. The director had performed monthly edit checks and found that the
number of students claimed exceeded the maximum amount of meals they could claim for
that month. SFA was not performing a daily edit check of meal counts and instead of
following up with schools to determine corrective action, or if necessary, justifying the
numbers to TEA as required by FNS procedures, the SFA altered base-year percentages
as a way of not overclaiming.
1
    Title 7, Code of Federal Regulations, section 245.9(b)(3)(i), revised January 2002.
2
    Title 7, Code of Federal Regulations, section 210.8(a), revised January 2002.
William Ludwig                                                                         5


The SFA child nutrition director stated that they did not inform TEA of their decision to
lower percentages because they were afraid TEA would ask them to recalculate base-year
percentages. The director thought that the problem with reimbursement claims was due to
base-year percentages being set too high, and stated that they would rather accept lost
revenue than recalculate the base-year percentages.

We did not determine whether the base-year percentages were set too high. However, we
did compare the number of meals served at the four schools to the official attendance
numbers the SFA submitted to the TEA. For September, we found 68 more breakfasts
and lunches claimed than supported by the daily attendance records. For example, on
September 23, 2002, the official attendance reported to the TEA for the middle school was
457 students. However, the SFA claimed reimbursement for the middle school for 474
students counted at point of service, 17 more than official attendance.

The practice of arbitrarily changing base-year percentages could result in the TEA being
unaware of other claim manipulations. If there have been significant changes in the
socioeconomic status of the student population, then the SFA should submit revised
base-year percentages to TEA. The child nutrition director stated that the accuracy of
attendance numbers had always been a concern. Accurate attendance numbers and
effective internal controls are necessary to ensure that reimbursement claims are not
overstated.

RECOMMENDATIONS

We recommend that FNSRO direct the TDA to:

    1. Verify the accuracy of the SFA meals claimed for SY 2002/2003 and recover any
       excess payments;
    2. review base-year percentages and determine if the percentages need to be
       modified;
    3. train the SFA on how to prepare reimbursement claims in accordance with FNS
       Provision 2 guidance, including comparison of daily meal counts to attendance
       adjusted enrollment; and
    4. conduct a followup review to ensure SFA has implemented internal control
       procedures as outlined in FNS Provision 2 guidance.

FNS Response

The FNS concurred with all the recommendations stated above.

OIG Position

We do not accept FNS management decision. To reach a management decision for the
recommendations above, we need documentation showing the specific corrective action
William Ludwig                                                                        6


to be taken, the timeframe within which the corrective action will be completed, and
documentation that the amounts determined to be owed the Government have been
collected.

In accordance with Department Regulation 1720-1, please furnish a reply within 60 days
describing corrective actions taken or planned and the timeframe for implementing the
recommendations for which management decisions have not yet been reached. Please
note that the regulation requires management decisions to be reached on all findings and
recommendations within a maximum of 6 months from report issuance and final action to
be taken within 1 year of each management decision. Please follow your internal agency
procedures in forwarding final action to the Office of the Chief Financial Officer.

We appreciate the assistance provided to us during the review.




/s/TRM
TIMOTHY R. MILLIKEN
Regional Inspector General
  for Audit
EXHIBIT A – FNS RESPONSE TO DRAFT REPORT
